                                OFFICE OF INSPECTOR GENERAL
                               CORPORATION FOR NATIONAL AND
                                          COMMUNITY SERVICE




            AGREED-UPON PROCEDURES FOR
       CORPORATION FOR NATIONAL AND COMMUNITY
                  SERVICE GRANTS
           AWARDED TO THE CORPS NETWORK

                      OIG REPORT 09-07




                         Prepared by:

                 COTTON & COMPANY LLP
                 635 Slaters Lane, 4th Floor
                 Alexandria, Virginia 22314




This report was issued to Corporation management on February 17, 2009. Under the
laws and regulations governing audit follow-up, the Corporation is to make final
management decisions on the report’s findings and recommendations no later than
August 17, 2009 and complete its corrective actions by February 17, 2010.
Consequently, the reported findings do not necessarily represent the final resolution
of the issues presented.
                         OFFICE OF INSPECTOR GENERAL
                                      February 17, 2009


TO:            Lois Nembhard
               Acting Director, AmeriCorps*State and National

               Margaret Rosenberry
               Director, Office of Grants Management

FROM:          Stuart Axenfeld /s/
               Assistant Inspector General for Audit

SUBJECT:       Report 09-07, Agreed-Upon Procedures for Corporation for National and
               Community Service Grants Awarded to The Corps Network


We contracted with the independent certified public accounting firm of Cotton & Company
LLP (Cotton) to perform agreed-upon procedures in its review of Corporation grants
awarded to The Corps Network. The contract required Cotton to conduct its review in
accordance with generally accepted government auditing standards.

Cotton is responsible for the attached report, dated September 19, 2008, and the
conclusions expressed therein. We do not express opinions on the Consolidated Schedule
of Claimed and Questioned Costs, supporting schedules, and conclusions on the
effectiveness of internal controls; or compliance with laws, regulations, and grant provisions.

Under the Corporation’s audit resolution policy, a final management decision on the findings
in this report is due by August 17, 2009. Notice of final action is due by February 17, 2010.

If you have questions pertaining to this report, please call me at (202) 606-9360 or Jim
Elmore at (202) 606-9354.

Attachment

cc:   Ms. Sally T. Prouty, President and Chief Executive
          Officer, The Corps Network
      William Anderson, Acting Chief Financial Officer
      Rocco Gaudio, Deputy Chief Financial Officer, for GFFM
      Sherry Blue, Audit Resolution Coordinator
      Sam Hadley, Partner, Cotton & Company LLP




                       1201 New York Avenue, NW Suite 830, Washington, DC 20525
                         202-606-9390 Hotline: 800-452-8210 www.cncsoig.gov

                          Senior Corps   AmeriCorps    Learn and Serve America
                                   OFFICE OF INSPECTOR GENERAL
                                  AGREED-UPON PROCEDURES FOR
                          CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                                       GRANTS AWARDED TO
                                       THE CORPS NETWORK


                                                          CONTENTS


Section                                                                                                                       Page


Executive Summary .........................................................................................................    1

Independent Accountants’ Report on Applying Agreed-Upon Procedures ......................                                      4

Exhibit A: Consolidated Schedule of Claimed and Questioned Costs ............................                                  6

Schedule A: Minnesota Conservation Corps .................................................................                     7

Schedule B: Vermont Youth Conservation Corps ...........................................................                       8

Schedule C: Southwest Conservation Corps .................................................................. 10

Schedule D: Earth Conservation Corps .......................................................................... 12

Exhibit B: Compliance Results ........................................................................................ 16

Appendices

A: The Corps Network’s Response to Agreed-Upon Procedures Report
B: Corporation’s Response to Agreed-Upon Procedures Report
                                    EXECUTIVE SUMMARY

The Office of Inspector General (OIG), Corporation for National and Community Service
(Corporation), contracted with Cotton & Company LLP to perform agreed-upon procedures to
assist the OIG in grant cost and compliance testing of Corporation-funded Federal assistance
provided to The Corps Network, formerly known as the National Association of Service and
Conservation Corps (NASCC).

SUMMARY OF RESULTS

As a result of applying our procedures, we questioned claimed Federal-share costs of
$61,612 and education awards of $37,928. A questioned cost is an alleged violation of a
provision of law, regulation, contract, grant, cooperative agreement, or other agreement or
document governing the expenditure of funds or a finding that, at the time of testing, includes
costs not supported by adequate documentation. Detailed results of our agreed-upon
procedures on claimed costs are presented in Exhibit A and the supporting schedules.

Participants who successfully complete terms of service under AmeriCorps grants are eligible
for education awards and, in some cases, accrued interest awards funded by the Corporation’s
National Service Trust. These award amounts are not funded by Corporation grants and thus
are not included in claimed costs. However, as part of our agreed-upon procedures, and using
the same criteria used for the grantees claimed costs, we determined the effect of our findings
on eligibility for education awards and accrued interest awards, which are directly funded by the
National Service Trust.

The following is a summary of grant compliance testing results. These results, along with
applicable recommendations, are discussed in Exhibit B.

1.     Subgrantees claimed unallowable and unsupported costs.

2.     Some member contracts were not signed before applicants started service.

3.     Subgrantees could not document that all members received evaluations, and certain
       evaluations did not meet AmeriCorps requirements.

4.     Subgrantees had weaknesses in member timekeeping procedures.

5.     Subgrantees did not complete all member enrollment and exit forms and enter them into
       the Corporation’s Web-Based Reporting System (WBRS) in accordance with
       AmeriCorps requirements.

6.     Subgrantees did not conduct orientation training or document member attendance at
       orientation for all members.

7.     The Corps Network and its subgrantees’ financial management systems did not
       adequately account for and report grant costs in accordance with Federal requirements.

8.     The Corps Network did not ensure that subgrantees complied with AmeriCorps
       requirements for member eligibility and living allowance payments.



                                              1
9.     The Corps Network did not operate its Gulf Coast Recovery Corps (GCRC) Program in
       accordance with the approved grant application.

Additionally, our interaction with The Corps Network management revealed a lack of
understanding of cost principles, grant provisions, and general grant accounting guidelines.
We determined that lack of proper monitoring of the fiscal and programmatic activities of the
subgrantees allowed the conditions expressed in the findings to exist and continue. We also
found that several subgrantees were unaware of grant provisions and laws and regulations,
and were provided incorrect guidance from The Corps Network.

Recommendation 10. In addition to the individual recommendations contained in this
report, the Corporation should direct The Corps Network to develop a comprehensive action
plan to address and correct the deficiencies noted in this report. The action plan must
include all subgrantees, not just those tested during this engagement.

Accountants’ Comment: The Corps Network did not address this recommendation and the
Corporation stated it would address this recommendation when the final report is issued (see
Appendix B).

AGREED-UPON PROCEDURES SCOPE

We performed the agreed-upon procedures detailed in the OIG’s Agreed-Upon Procedures
(AUP) Program for Corporation Awards to Grantees (including subgrantees), dated January
2008. Our procedures covered testing of the following grants:

       Award             Award No.        Award Period          AUP Period        Total Award
 AmeriCorps National    04NDHDC001      10/01/04-09/30/08    10/01/05-09/30/07    $4,663,904
 AmeriCorps National    06NDHDC005      01/01/07-12/31/09    01/01/07-09/30/07      $573,504
 AmeriCorps National    06EDHDC001      07/01/06-06/30/09    07/01/06-09/30/07    $1,400,000

The OIG’s agreed-upon procedures program included:

             Obtaining an understanding of The Corps Network and its subgrantee
              monitoring process.

             Reconciling claimed grant costs and match costs of The Corps Network and
              a sample of subgrantees to their accounting systems.

             Testing subgrantee member files to verify that records supported eligibility to
              serve, allowability of living allowances, and education awards.

             Testing compliance of The Corps Network and a sample of subgrantees on
              selected AmeriCorps Provisions, and award terms and conditions.

             Testing claimed grant costs and match costs of The Corps Network and a
              sample of subgrantees to ensure:

                      AmeriCorps grants were properly recorded;

                      Costs were properly matched; and

                                             2
                     Costs were allowable and supported in accordance with applicable
                      Office of Management and Budget (OMB) circulars, grant provisions,
                      award terms and conditions.

We performed testing of the Rural Response Program (RR), GCRC Program, Civic Justice
Corps Program (CJC), and Education Award Program (EAP) at The Corps Network and five of
its subgrantee sites, from April 2008 through August 2008.

BACKGROUND

The Corporation

The Corporation supports a range of national and community service programs that provide
an opportunity for individuals (members) to serve full- or part-time. The Corporation funds
opportunities for Americans to engage in service that fosters civic responsibility and
strengthens communities. It also provides educational opportunities for those who have
made a substantial commitment to service.

The Corporation has three major service initiatives: National Senior Service Corps,
AmeriCorps, and Service-Learning (Learn and Serve America). The AmeriCorps Program,
the largest of the initiatives, is funded in two ways: grants through the State Commissions,
and direct funding to applicants, including funding under the National Direct Program. The
AmeriCorps National Direct grant is an annual award passed through the grantee to its
subgrantee sites. The subgrantees recruit and select volunteers who earn a living
allowance and/or education awards.

The Corps Network

The Corps Network is a non-profit organization that was founded in 1985 as the NASCC. A
board of directors governs The Corps Network, which is located in Washington D.C. The Corps
Network serves as an umbrella organization for the affiliated service and conservation corps
across the United States and promotes opportunities for individuals between the ages of 16 and
25 to engage in service and conservation projects.

EXIT CONFERENCE

The contents of this report were discussed with representatives from The Corps Network
and the Corporation on October 29, 2008. The Corps Network and the Corporation
provided written responses to the draft report. We summarized those comments in
appropriate sections of this report and included the full comments from The Corps Network
in Appendix A, and the full comments of the Corporation in Appendix B. The Corporation
responded to one finding, and stated it will address the remaining findings and questioned
costs in its management decision after the final report is issued.




                                              3
September 19, 2008


Office of Inspector General
Corporation for National and Community Service

                           INDEPENDENT ACCOUNTANTS’ REPORT ON
                            APPLYING AGREED-UPON PROCEDURES

Cotton & Company LLP performed the procedures detailed in the OIG’s Agreed-Upon
Procedures Program for Corporation Awards to Grantees (including Subgrantees), dated
January 2008. These procedures were agreed to by the OIG solely to assist it in grant cost
and compliance testing of Corporation-funded Federal assistance provided to The Corps
Network for the awards detailed below.

This agreed-upon procedures engagement was performed in accordance with standards
established by the American Institute of Certified Public Accountants (AICPA) and generally
accepted government auditing standards. The sufficiency of these procedures is solely the
responsibility of the OIG. Consequently, we make no representation regarding the
sufficiency of the procedures, either for the purpose for which this report has been
requested or any other purpose.

Our procedures covered testing of the following awards:

         Award          Award No.         Award Period          AUP Period       Total Award
 AmeriCorps National   04NDHDC001       10/01/04-09/30/08    10/01/05-09/30/07   $4,663,904
 AmeriCorps National   06NDHDC005       01/01/07-12/31/09    01/01/07-09/30/07     $573,504
 AmeriCorps National   06EDHDC001       07/01/06-06/30/09    07/01/06-09/30/07   $1,400,000

We performed testing of the RR and GCRC Programs (Award No. 04NDHDC001), CJC
Program (Award No. 06NDHDC005), and the EAP (Award No. 06EDHDC001) at The Corps
Network and five of its subgrantees sites.

                                     Site                   Programs Tested
               The Corps Network                             RR, GCRC, CJC
               California Conservation Corps (CCC)                EAP
               Minnesota Conservation Corps (MCC)              RR, GCRC
               Vermont Youth Conservation Corps (VYCC)         RR, GCRC
               Southwest Conservation Corps (SCC)                GCRC
               Earth Conservation Corps (ECC)                     CJC



                                             4
We selected and tested labor, benefits, and other direct costs at The Corps Network, VYCC,
MCC, SCC, and ECC through September 30, 2007. At the request of the OIG, we
expanded testing at ECC to include incurred costs for all of PY 2006-2007. We also tested
certain grant compliance requirements by sampling the files of 121 of 995 subgrantee
members. We performed all applicable testing procedures in the AUP Program for each
sampled member file.

 Site                                   PY 2005-2006      PY 2006-2007      PY 2007-2008
 California Conservation Corps                 0                25                25
 Minnesota Conservation Corps                  9                10                 0
 Vermont Youth Conservation Corps             10                 7                 0
 Southwest Conservation Corps                  9                 0                 0
 Earth Conservation Corps                      0                26                 0
 Total                                         28                68                25


RESULTS OF AGREED-UPON PROCEDURES

We questioned claimed Federal-share costs of $61,612. A questioned cost is an alleged
violation of provision of law, regulation, contract, grant, cooperative agreement, or other
agreement or document governing the expenditure of funds or a finding that, at the time of
testing, includes costs not supported by adequate documentation.

We questioned education awards of $37,928. Grant participants who successfully complete
terms of service under AmeriCorps grants are eligible for education awards and repayment
of student loan interest accrued during the term of service from the National Service Trust.
These award amounts are not funded by Corporation grants and thus are not included in
claimed costs. As part of our agreed-upon procedures and using the same criteria as
claimed costs, we determined the effect of our findings on education and accrued interest
award eligibility.

Detailed results of our agreed-upon procedures on claimed costs are presented in Exhibit A
and the supporting schedules. Results of testing grant compliance are summarized in
Exhibit B. We were not engaged to, and did not perform an examination, the objective of
which would be expression of an opinion on the subject matter. Accordingly, we do not
express such an opinion. Had we performed other procedures, other matters might have
come to our attention that would have been reported.

This report is intended solely for the information and use of the OIG, the Corporation, The
Corps Network, and the U.S. Congress and is not intended to be and should not be used by
anyone other than these specified parties.

COTTON & COMPANY LLP




Sam Hadley, CPA, CGFM
Partner



                                              5
                                                                                            EXHIBIT A


                                 THE CORPS NETWORK
                CORPORATION FOR NATIONAL AND COMMUNITY SERVICE AWARDS
                CONSOLIDATED SCHEDULE OF CLAIMED AND QUESTIONED COSTS


                                                 Federal Costs                Education
                                                                               Awards
Award No.                            Awarded       Claimed       Questioned Questioned      Reference
04NDHDC001-RR and GCRC
RR Program
Minnesota Conservation Corps        $1,090,200    $1,006,882                      $4,809 Schedule A
Vermont Youth Conservation Corps       551,025         461,120        $219          9,489 Schedule B
Subtotal                            $1,641,225    $1,468,002          $219       $14,298


GCRC Program
Minnesota Conservation Corps           $15,477         $15,229                              Schedule A
Vermont Youth Conservation Corps        27,472          35,281                              Schedule B
Southwest Conservation Corps           179,600         166,485      $61,988                Schedule C
Subtotal                              $222,549      $216,995        $61,988


Others-RR and GCRC Program          $1,560,130    $1,537,364
Total                               $3,423,904    $3,222,361        $62,207      $14,298


06NDHDC005-CJC
Earth Conservation Corps 1            $175,706         $66,053       ($595)      $23,630 Schedule D
Others                                 397,898         307,167
Total                                 $573,604      $373,220         ($595)      $23,630


06EDHDC001- EAP                     $1,400,000     $591,600 2


Total                               $5,397,508    $4,187,181        $61,612      $37,928




 1
   At the request of the OIG, we expanded testing at ECC to include costs through February 2008,
 which were reimbursed by The Corps Network, as well as all other program costs incurred by ECC for
 the remainder of PY 2006-2007 that The Corps Network had not yet paid. Schedule D provides the
 detailed results of the testing.
 2
   This was the amount The Corps Network drew down as of September 30, 2007. The Corps
 Network receives a $400 administrative fee for each eligible full-time member enrolled in the program.

                                                   6
                                                                                     SCHEDULE A


                                 THE CORPS NETWORK
                       SCHEDULE OF CLAIMED AND QUESTIONED COSTS
                            MINNESOTA CONSERVATION CORPS


                                                     PY 2005-2006      PY 2006-2007      Note
         Claimed Federal Costs                          $497,347         $509,535
         Questioned Education Awards:
            Timesheet/WBRS Hours Discrepancy                  $28           $4,781        1

1.     Timesheets did not support hours recorded in WBRS for 1 of 8 sampled full-time
       members in PY 2005-2006 and 2 of 9 sampled full-time members in PY 2006-2007
       (see Compliance Finding 4).

       AmeriCorps Special Provisions (2005-2006), Section IV. C.2., AmeriCorps Member,
       requires that grantees keep time-and-attendance records for all AmeriCorps
       members to document their eligibility for in-service and post-service benefits. The
       Corporation uses time-and-attendance information in WBRS to track member status,
       which forms the basis for calculating education awards.

       Without procedures to verify member activities or timesheet accuracy, the potential
       exists that members may perform prohibited activities or may receive education
       awards to which they are not entitled. We questioned a prorated portion of the
       partial education awards to the two members (one from PY 2005-2006 and one from
       PY 2006-2007) who left for compelling personal circumstances. The timesheets for
       these members did not support the WBRS hours used to calculate their partial
       education awards. We also questioned the full education award of $4,725 for one
       PY 2006-2007 member because the member’s timesheets did not support the 1,700-
       service hours that are necessary to earn a full education award.

                                                                            Questioned
                                                            Questioned      Portion of
                    WBRS       Timesheet                    Education         Partial
         Member     Hours        Hours        Difference      Award          Award 3
           1        1,333.0      1,323.0        10.0                            $28
           2        1,533.5      1,513.5        20.0                            $56
           3        1,702.5      1,692.5        10.0          $4,725




3
 The questioned education awards for the two members with partial education awards were
calculated as follows: (WBRS Hours/1,700 hours x $4,725)-(timesheet hours/1,700 hours x $4,725).

                                                7
                                                                                  SCHEDULE B


                               THE CORPS NETWORK
                     SCHEDULE OF CLAIMED AND QUESTIONED COSTS
                        VERMONT YOUTH CONSERVATION CORPS


                                                                 PY 2005-   PY 2006-
                                                                                       Notes
                                                                   2006       2007
      Claimed Federal Costs                                      $242,925   $218,195

      Questioned Federal Costs
       Used participant support costs for administrative costs      $219                1

      Questioned Education Awards
       Timesheet/WBRS hours discrepancies                          $4,746     $4,743    2


1.   VYCC used $219 budgeted for member support for administrative costs in PY 2005-
     2006 and did not provide documentation of prior written approval for deviating from
     its approved budget. AmeriCorps Special Provisions (2005-2006), Section IV. M.3.,
     Budgetary Changes, states that the grantee must obtain prior written approval of the
     Corporation’s Office of Grants Management before deviating from the approved
     budget by reallocating funds from the member support cost category to other
     categories of the approved budget. We questioned $219 for reallocated costs
     claimed without prior written approval (See Compliance Finding 1).

2.   Timesheets did not support hours recorded in WBRS for 4 of 10 sampled members
     in PY 2005-2006 and 2 of 7 sampled members in PY 2006-2007 (See Compliance
     Finding 4).

     AmeriCorps Special Provisions (2005-2006), Section IV C.2., AmeriCorps Member,
     requires that grantees keep time-and-attendance records for all AmeriCorps
     members to document their eligibility for in-service and post-service benefits. The
     Corporation uses time-and-attendance information in WBRS to track member status,
     which forms the basis for calculating education awards.

     Without procedures to verify member activities or timesheet accuracy, the potential
     exists that members may perform prohibited activities or may receive education
     awards to which they are not entitled. We questioned the education awards for the
     members who did not meet the minimum service hours required to earn education
     awards. We also questioned portions of prorated awards provided for compelling
     personal circumstances in instances where service hours used in the calculations
     were overstated. Therefore, we questioned the education awards of $9,450 for one
     full-time PY 2005-2006 member and one full-time PY 2006-2007 member who
     completed service. In addition, we questioned the education awards $39 for one PY
     2005-2006 part-time member and one PY 2006-2007 member who earned partial
     education awards because of personal compelling circumstances.



                                              8
                                                                                   Questioned
                                                                    Questioned
                     WBRS         Timesheet                                        Portion of
    Member                                          Difference      Education
                     Hours          Hours                                            Partial
                                                                      Award
                                                                                    Award 4
        1           1,700.0          1,648.0          52.0            $4,725
        2             488.0            480.0           8.0                               $21
        3           1,727.5          1,719.5           8.0
        4           1,751.0          1,723.0          28.0
        5           1,460.0          1,453.0           7.0                               $18
        6           1,700.0          1,666.0          34.0            $4,725




4
 The questioned education awards for the two members with partial education awards were
calculated, as follows: (WBRS Hours/1,700 hours x $4,725)-(timesheet hours/1,700 hours x $4,725).

                                                9
                                                                                     SCHEDULE C


                                  THE CORPS NETWORK
                        SCHEDULE OF CLAIMED AND QUESTIONED COSTS
                             SOUTHWEST CONSERVATION CORPS


                                                                   PY 2005-2006      Note
         Claimed Federal Costs                                         $166,485

         Questioned Federal Costs
           Unsupported costs                                               $55,576     1
           Living allowance paid to Education Award Only member              1,896     2
           Living allowance paid to non-AmeriCorps member                    1,418     3
           Administrative Costs                                              3,098     4
         Total Questioned Federal Costs                                    $61,988

1.   SCC did not provide adequate supporting documentation, such as timesheets,
     invoices, and receipts to support $55,576 of claimed personnel costs, other program
     costs (uniforms, personal protective equipment, communications, gear, and
     supplies), living allowances, and member support costs on its GCRC Program.

                        Category                    Claimed    Supported     Unsupported
         Personnel Costs                            $30,014                      $30,014
         Fringe Benefits                               8,109                       8,109
         Uniforms and PPE                              1,563                       1,563
         Communications, Gear, and Supplies            7,150                       7,150
         Living Allowance                            54,242     $53,942              300
         Member Support Costs                        10,773       2,333            8,440
         Total                                   $111,851       $56,275          $55,576


     SCC claimed personnel costs, fringe benefits, uniforms and communications costs
     using an allocation of total program costs, which includes GCRC members and other
     members. Total costs for calendar year 2007 were accumulated and allocated to
     GCRC based on the total service weeks performed by GCRC members to total
     service weeks in the program.

     This allocation method does not result in an equitable allocation of costs to the
     GCRC program for several reasons:

                SCC’s personnel costs allocation included the cost-share for its Volunteers in
                 Service to America (VISTA) member. VISTA is a separate Federal program
                 from the GCRC Program and any costs associated with that program are not
                 allowable under the GCRC Program.




                                               10
           Personnel and other costs claimed are duplicative of costs recovered using
            the five-percent administrative allowance.

           SCC’s programs that are included in this allocation are not homogenous, and
            received different levels of supervision and administration. For instance,
            while this program was allocated over $38,000 of claimed personnel and
            fringe costs, this 28-week program did not have any on-site staff supervision.
            Program operating costs (excluding living allowance and member support
            costs) claimed by SCC are significantly higher than costs claimed by other
            subgrantees that did not use an allocation system.

     SCC considered the allocation to be allowable because its independent auditors
     considered it a reasonable way for SCC to document its expenses. SCC further
     indicated that it was difficult to allocate expenses because member teams were
     comprised of both AmeriCorps and non-AmeriCorps members. We questioned
     unsupported allocated costs of $46,836 (see Compliance Finding 7).

     SCC did not provide any supporting documentation for the $8,740 of unsupported
     living allowance and member support costs (see Compliance Finding 1).

2.   SCC claimed $1,896 of living allowance and related benefits for an Education Award
     Only member. The member was enrolled in SCC’s PY 2006-2007 Education Award
     Only Program but performed a portion of his service in the Gulf Coast with SCC’s PY
     2005-2006 GCRC Program. The two programs operated concurrently. SCC was
     unaware that this member was ineligible to receive a living allowance. We
     questioned the $1,896 of living allowance and related benefits (see Compliance
     Finding 8).

3.   SCC claimed $1,101 of living allowance and $317 of airfare for an individual who
     was not enrolled in the AmeriCorps Program. AmeriCorps Special Provisions (2005-
     2006), Section IV.I.1. Living Allowance Distribution, states that the living allowance is
     designed to help members meet necessary living expenses incurred while
     participating in the AmeriCorps Program. SCC officials stated that the individual
     participated in the GCRC Program but was not enrolled in WBRS because the
     member quit after the first part on the program. We questioned the $1,101 of living
     allowance and $317 of airfare for this individual (see Compliance Finding 8).

4.   The questioned costs in Notes 1 through 3 resulted in $3,098 ($58,890 x 5.26%) of
     unallowable administrative costs.




                                            11
                                                                                    SCHEDULE D


                                    THE CORPS NETWORK
                         SCHEDULE OF CLAIMED AND QUESTIONED COSTS 5
                                EARTH CONSERVATION CORPS


                                                PY 2006-2007      PY 2006-2007
                                                 Section II       Sections I&III       Notes

 Total Incurred Costs                           $131,976             $300,585

 Questioned Costs:
  Unallowable living allowance payments           20,992                                  1
  Missing documentation of high school
                                                     8,880                                2
     education/agreement to obtain a GED
  Unallowable member heath care costs                  70                  (70)           3
  Unallowable match costs                                                2,595       Exhibit B, 1
 Total Allowable Costs                          $102,034             $298,060

 Federal Share of Costs
 (85% x $102,034 and 67% x $298,060)             $86,729             $199,700
 Subaward Ceiling (Sections I & II)              130,348               36,578
 Allowable Federal Costs (Sections I & II)       $86,729              $36,578
 Allowable Administrative Costs (Section III)                           6,486             4
 Total Allowable Federal Costs                   $86,729              $43,064
 Amount Reimbursed to ECC                         86,164               43,034
 Amount Due to ECC                                 $565                   $30

 Questioned Education Awards
     Timekeeping discrepancies                   $23,630                                  5

1.     Living allowance payments were not distributed in accordance with the applicable
       provisions, as follows:

               ECC provided lump-sum living allowance payments totaling $8,396 to
                4 members at the conclusion of their service. The lump sum living allowance
                payments included the return of fines previously deducted from the members’
                living allowance.

               ECC provided a total of $1,400 of “bonus” living allowance payments as
                incentives to six members.



5 At the request of the OIG, we expanded testing at ECC to include costs through February 2008,
which were reimbursed by The Corps Network, as well as all other program costs incurred by ECC for
the remainder of PY 2006-2007 that The Corps Network had not yet paid.

                                                12
           ECC provided $5,205 of living allowance payments to 9 members before the
            members were enrolled in WBRS and started their service.

           ECC provided $1,646 of living allowance payments to 2 members after the
            members exited the AmeriCorps Program.

           ECC provided $4,345 of living allowance payments to 5 individuals who were
            not enrolled in the AmeriCorps Program.

     AmeriCorps Special Provisions (2005-2006), Section IV.I.1. Living Allowance
     Distribution, states that programs should pay living allowance in regular increments,
     such as weekly or bi-weekly, paying an increased increment only for increased living
     expenses, such as food, housing, or transportation, and that the program is not
     permitted to provide a “lump sum” payment of the remaining living allowance upon a
     member’s early completion of a term of service, nor provide “make-up” missed
     payments.

     We questioned the $20,992 of unallowable living allowance and related benefits (see
     Compliance Finding 8).

2.   ECC did not have documentation to support that four members obtained a high
     school diploma/ General Equivalency Degree (GED), or agreed to obtain one.

     AmeriCorps Special Provisions (2006-2007) Section IV.L.2, Verification, states that
     to verify that a member meets the requirement relating to high-school education, the
     grantee must obtain from the member, and maintain in the member’s file, a written
     declaration under penalty of law that the member meets provision requirement
     relating to high-school education.

     Subsequent to the identification of this issue, ECC provided certifications from two of
     the four members agreeing to obtain a GED. We questioned $8,880 of living
     allowance and related benefits for the remaining two members who were missing
     GED certifications (see Compliance Finding 8).

3.   ECC erroneously claimed $70 of staff health care costs as member support costs.
     We questioned $70 of member support costs and allowed $70 of personnel benefit
     costs.

4.   The allowable administrative costs were calculated as follows:

                  Allowable Federal Costs (Section II)            $86,729
                  Allowable Federal Costs (Section I)              36,578
                  Total                                          $123,307
                  Administrative Cost Percentage                  x 5.26%
                  Allowable Administrative Costs (Section III)     $6,486

5.   ECC’s member timekeeping documentation was insufficient to support member
     service hours as follows:

           Members did not prepare their own timesheets and signed blank timesheets.


                                             13
   Member timesheets were missing member and supervisor signatures. We
    deducted the service hours reported on the member timesheets for two
    members whose timesheets were missing member signatures.

                                           Hours on              Hours
                      Timesheet        Timesheets Without         After
           Member       Hours          Member Signatures        Deduction
             1          949.0                324.0               625.0
             2          914.0                 62.0               852.0

   Timesheets did not support hours recorded in WBRS for all 12 members
    included in the timesheet testing sample.

                                   WBRS          Timesheet
                     Member        Hours           Hours
                       1           952.0           968.0
                       2           912.0           939.0
                       3           912.0           886.0
                       4           963.0           949.0
                       5           969.0           886.0
                       6           928.0           901.0
                       7           884.0           950.0
                       8           781.0           927.0
                       9           919.0           909.0
                       10          794.0           914.0
                       11          992.0           998.0
                       12          734.0           731.0

   Throughout the program year, ECC used timecards, sign-in sheets, and
    timesheets to track member service hours. We tested the timecards, sign-in
    sheets, and timesheets for April 2007 and identified discrepancies between
    the documents. We were unable to determine the hours on the timecards
    since the timecards were missing departure times.

                          Timecard              Sign-In Sheet      Timesheet
         Member             Hours                  Hours             Hours
           1          Unable to Determine           139.0            122.0
           2          Unable to Determine           127.0            167.0
           3          Unable to Determine           194.0            252.0
           4          Unable to Determine           163.0            210.0
           5          Unable to Determine           184.0            253.0

   ECC was unable to adequately provide an explanation for apparent
    discrepancies of service hours performed by the members. While testing
    member timesheets, we identified 6 members with 12-hour “special event”
    service days between March 2007 and July 2007 and 11 members with
    16-hour service days.



                                  14
       ECC representatives explained that the 12-hour service days were for the
       Trees for Georgetown and the Oak Hill projects. However, we reviewed the
       award documentation for these projects and noted that the performance
       periods for the projects were after the periods for which we identified the
       12-hour service days.

       ECC representatives explained that the 16-hour days were for training events
       including a trip to Ocean City, MD, for a drug and alcohol awareness
       conference and a trip to Baltimore. ECC was unable to provide
       documentation to support the members’ attendance at the Ocean City
       conference. ECC representatives provided an explanation for the Baltimore
       trip; however, the hours described in ECC’s explanation did not agree with
       the hours recorded on the member timesheets.

      The signature on one member’s timesheets did not match the signature on
       the member’s contract, enrollment form, and other member timesheets.

      Lunchtime hours were not recorded on the member timesheets.

      Some member timesheets were signed by the member and supervisor in
       advance and were missing member and supervisor signature dates.

      Some member timesheets were completed in pencil, had whiteout, and had
       corrections that were not initialed.

AmeriCorps Special Provisions (2005-2006), Section IV.C.2., AmeriCorps Member,
requires that grantees keep time-and-attendance records for all AmeriCorps
members to document their eligibility for in-service and post-service benefits. Time
and attendance records must be signed and dated by both the member and
supervisor.

Based on the reasons listed above, we are questioning education awards of $23,630
for the 10 members that earned education awards. Two members that have not
exited the program would also be ineligible to receive education awards based on
the reasons listed above (see Compliance Finding 4).




                                      15
                                                                                     EXHIBIT B


                                    THE CORPS NETWORK
                                    COMPLIANCE RESULTS

The results of our agreed upon procedures identified the following compliance findings:


Finding 1.   Subgrantees claimed unallowable and unsupported costs.

The notes to Schedules A through D describe questioned costs of $61,612, which are
summarized on Exhibit A. A questioned cost is an alleged violation of provision of law,
regulation, contract, grant, cooperative agreement, or other agreement or document
governing the expenditure of funds or a finding that, at the time of testing, such cost is not
supported by adequate documentation.

In addition, The Corps Network and its subgrantees claimed unallowable and unsupported
match costs as follows:

Earth Conservation Corps

Sampled ECC match costs also included the following unallowable costs:

              ECC claimed $508 ($52 and $456) of unsupported costs for member
               uniforms. ECC did not have any supporting documentation for the $52 of
               unsupported costs and had insufficient documentation (shipping receipt) for
               the $456.

              ECC claimed $463 for the equipment rented by a non-employee during a
               tree-planting project. The only documentation provided by ECC to support
               the expense was a copy of the non-employee’s credit card statement. ECC
               did not provide any other documentation from the non-employee to support
               that the equipment was used during the tree-planting project.

              ECC claimed $1,261 for a trip to Ocean City, Maryland for 9 members and
               staff to attend a drug and alcohol awareness conference. ECC did not
               provide any documentation to support the members’ attendance at the
               conference.

OMB Circular A-122 Cost Principles for Non-Profit Organizations, Attachment A. Paragraph
A.2., Factors affecting allowability of costs, states an award cost must be adequately
documented to be allowable.

              ECC claimed $356 of member bowling expenses. The members were taken
               on bowling trips as an incentive for good performance. OMB Circular A-122,
               Attachment B. Selected Items of Cost, Paragraph 14. Entertainment Costs,
               states that costs of entertainment, including amusement, diversion, and social


                                               16
              activities and any costs directly associated with such costs (tickets to shows
              or sports events, meals, lodging, rentals, transportation, and gratuities) are
              unallowable.

Match-cost exceptions identified above resulted in overstated match costs claimed. ECC
had, however, substantial overages in match requirements on this grant, and these offset
the match exceptions identified. As a result, we did not question overstated match costs.

Vermont Youth Conservation Corps and Southwest Conservation Corps

We tested GGRC match costs at VYCC and SCC. We identified the following unallowable
and unsupported costs:

             As discussed in Compliance Finding 7, VYCC did not have adequate
              timekeeping procedures to support claimed labor costs. VYCC believed that
              timesheets were not required and allocated labor using estimates of labor
              costs. VYCC reported its match on its reimbursement requests; however, the
              match was not reported by The Corps Network on its Financial Status
              Reports (FSRs). We did not question these costs since they were not
              claimed by The Corps Network.

             SCC did not provide adequate supporting documentation for $179,378 of
              match costs. SCC provided copies of supporting invoices for $146,639 of
              fee-for-service revenue; but did not provide supporting documentation, such
              as timesheets, invoices, and receipts for the expenses. In addition, SCC
              provided allocations to support $64,858 of personnel costs and $24,963 of
              other program operating costs; however, the allocations were based on the
              total amount of GCRC and non-GCRC costs for calendar year 2007 instead
              of only those costs incurred during the February 2007 to August 2007 award
              period for the GCRC Program. SCC considered the allocation to be
              allowable because its independent auditors considered it a reasonable way
              for SCC to document its expenses. SCC further indicated that it was difficult
              to allocate expenses because member teams were comprised of both
              AmeriCorps and non-AmeriCorps members. SCC reported its match on its
              reimbursement requests; however, the match was not reported by The Corps
              Network on its FSRs. We did not question these costs since they were not
              claimed by The Corps Network.

The Corps Network

As discussed above, The Corps Network did not report match from its GCRC sites in its
FSRs. Without this match, The Corps Network will not meet its 50 percent match
requirement for the GCRC Program. Officials stated that they would make changes to the
previous FSRs once this OIG report identified the final financial results of the program.




                                             17
Recommendations:

We recommend that the Corporation:

       1a.    Recover the disallowed costs;

       1b.    Recover the administrative costs related to the disallowed costs; and

       1c.    Instruct The Corps Network to review applicable regulations and develop
              polices and procedures to ensure claimed costs are allowable, adequately
              documented, and allocable in accordance with applicable cost principles and
              regulations.


The Corps Network’s Response:

             The disallowed costs and related administrative costs identified with the Gulf
              Recovery Corps project should not be recovered since this project was
              originally based on a fixed-price agreement for its subgrantees.

             The Corps Network noted that it welcomes all training and guidance offered
              by the Corporation to help us effectively manage our grants. It has begun
              strengthening oversight of grant funds. The Corps Network hired a Grants
              and Project Director to oversee all grants management activities across the
              organization and to develop standardized processes for all Corporation
              awards. In addition, The Corps Network instituted a Corrective Action Policy
              with its subgrantees to address any programmatic or financial compliance
              issues. Further, The Corps Network strengthened its subgrantee monitoring
              processes for conducting desk reviews and site visits. Finally, The Corps
              Network is developing an organization-wide grants management manual.

Corporation’s Response: As the auditors noted, one of the three grants reviewed was
awarded based on the approved application submitted by The Corp Network stating it would
provide fixed-price subgrants; however it was not implemented according to the approved
application. The Corporation agrees the program was not implemented as approved. The
Corporation agrees that The Corps Network needs to provide a calculation that identifies the
amount that would have been reimbursed to each subgrantee following the terms of the
approved grant application. Based on that information, the Corporation will determine final
resolution.

Accountants’ Comment: The Corps Network’s response did not provide criteria or
authorization that would allow the Corporation to pay for the costs it has claimed. As the
Corporation stated, The Corps Network must provide an accounting under the terms of the
approved grant application before it can determine final resolution.

Finding 2.   Some member contracts were not signed before applicants started
             service.

As detailed below, service hours were recorded for periods before member contracts were
signed.


                                              18
                                     Contracts
               Program        Signed After Service Start     Contracts Tested
                VYCC                      6                          17
                 ECC                      1                          26
                 CCC                      2                          50
                 Totals                   9                           93


In addition, we noted:

              One ECC member did not date his/her member contract.

              Six ECC members signed and dated their member contracts in pencil.

AmeriCorps Special Provisions (2005-2006), Section IV.C.1.b. Member Enrollment
Procedures, stipulates that AmeriCorps Programs are required to sign a member contract
with an individual, or otherwise enter a legally enforceable commitment as defined by state
law, before enrolling a member.

Recommendation:

We recommend that:

       2.      The Corporation require The Corps Network to strengthen its training and
               monitoring of member contracts to ensure that member contracts are signed
               prior to the start of service.

.
The Corps Network’s Response: The Corps Network concurs with this recommendation.
It communicates the importance of signing each member contract in advance of the
member’s term of service in its policies and procedures manual and reinforces it throughout
the year through newsletters, conference calls, and other correspondence. Going forward,
all Program staff will review a random sample of member contracts during desk audits and
site visits.


Accountants’ Comment: The Corps Network’s planned actions are responsive to the
recommendation.


Finding 3.   Subgrantees could not document that all members received evaluations,
             and certain evaluations did not meet AmeriCorps requirements.

MCC, VYCC, SCC, ECC, and CCC did not provide documentation showing that some
members received mid-term and final evaluations, as follows:




                                              19
                                                      Mid Term
                                                     Evaluations         Final Evaluations
                   Program          Tested            Missing 6               Missing
                    MCC               19                                          3
                    VYCC              17                  1                      10
                     SCC               9                                          5
                     ECC              26                                          2
                    CCC               50                49                       49
                    Total            121                50                       69


In addition, none of the final evaluations tested at MCC, VYCC, SCC, ECC, and CCC
indicated whether the member had completed the required number of service hours to be
eligible for an education award.

AmeriCorps Special Provisions (2005-2006), Section IV.D.6. Performance Reviews, states
that grantees must conduct and keep a record of at least a mid- and end-of-term written
evaluation of each member’s performance for full- and half-time members and an end-of-
term written evaluation for less than half-time members to document that the member has:

                  Completed the required number of hours;
                  Satisfactorily completed assignments; and
                  Met other performance criteria communicated at the beginning of the service
                   term.

We identified other issues with mid- and final-term evaluations, as follows:

                       Mid-Term Evaluations                    Final Evaluations
                                   Signed                       Signed     Signed
                                     After                      Before      After
                                   Member                      Member     Member         Not
           Program     Unsigned      Exit         Unsigned       Exit        Exit       Dated
           MCC              1                           3            7
           VYCC             8                           7                                    2
           SCC                                          3                                    3
           ECC               18              1         24                        4
           Total             27              1          37           7           4           5

Evaluations are necessary to ensure that members are eligible for additional service terms,
and that grant objectives have been met. Without evaluations, members are not eligible to
serve an additional term of service.




6
    The requirement for a mid-term evaluation applies only to full- and part-time members.

                                                   20
Recommendations:

We recommend that the Corporation:

       3a.    Train The Corps Network on the requirements for member evaluations and
              ensure it strengthens its training and monitoring procedures for conducting
              and documenting member evaluations; and

       3b.    Verify the implementation of The Corps Network’s training and monitoring
              procedures for member evaluations.

The Corps Network’s Response: The Corps Network did not agree with this finding.

             The June 2008, Volume 3, Number 3, issue of AmeriCorps State and
              National Policy Update states that in the past the Provisions were silent as to
              whether EAPs were required to comply with the regulatory requirement to
              perform member evaluations and starting in 2008-2009, EAPs will have to
              comply with the regulation.

              In June 2008, The Corps Network communicated the new regulation to each
              of its subgrantees and included information in the procedures manual for
              each Corporation-funded program. The Corps Network also provided sample
              evaluation forms for subgrantees to use to ensure compliance with this
              regulation.

             The Corps Network can provide documentation of training offered to Program
              staff and sites as well as specific policies to be included into The Corps
              Network grant management manual. The Corps Network can also provide
              documentation of polices included in each Corporation-funded program’s
              procedures manual for subgrantees, and the subgrantee monitoring tool used
              to review documentation of member evaluations during desk audits and site
              reviews.

Accountants’ Comment: While the Provisions were silent regarding performance
evaluations for EAP members, the requirements to perform the member evaluations were
not new and were previously included in the Code of Federal Regulations (CFR). However,
the Corporation temporarily waived the requirement to evaluate EAP members. This waiver
is no longer in effect, and The Corps Network should implement the recommendation. It
should be noted that this waiver only applied to EAP grants, and CCC was the only EAP
subgrantee tested.

The Corporation needs to determine the sufficiency of documentation and planned actions
with regard to training and monitoring procedures for member evaluations.


Finding 4.   Subgrantees had weaknesses in member timekeeping procedures.

Timesheet hours were not always accurately recorded in WBRS. We tested timesheets for
88 members at MCC, VYCC, CCC, ECC, and SCC that earned an education award or were
about to earn an award.


                                             21
Service hours recorded in WBRS were not supported by member timesheets as follows:

                               Members with        Education Awards      Questioned
       Program       Tested     Differences           Questioned      Education Awards
       MCC             17             3                    3               $4,809
       VYCC            13             6                    4               10,510
       ECC             12            12
       SCC              9             6
       CCC             37
       Totals          88            27                   7                $15,319


During testing, we noted weaknesses in timekeeping procedures. A summary of timesheet
discrepancies by program follows:

                 Weakness                    MCC       VYCC     ECC      SCC      CCC      Totals
 Signed before hours served                   13         4       6                          23
 Not original                                  4         1                                   5
 Prepared in pencil or whiteout               10         7        2                         19
 Changes not initialed                         4        10        3       9                 26
 Missing member or supervisor signatures       8         3                           2      13
 Signed but not dated                                    5       12                  1      18
 Member timesheets with different member
                                               1                  1                              2
 signatures
 Missing member and supervisor signatures                         3       2                      5
 Timesheets for same period with different
                                                         3                                       3
 hours

As discussed in Schedule D, Note 4, we questioned $23,360 of education awards that were
not supported by member service hours because of weaknesses in ECC’s member
timekeeping procedures.

The Corps Network’s subgrantees did not have adequate policies and procedures to ensure
that members and/or supervisors initialed all timesheets and corrections, refrained from
using pencil and whiteout, obtained and maintained original timesheets, signed timesheets
only after completing service hours, and checked accuracy of recorded hours.

AmeriCorps requirements address policy but do not address specific timesheet procedures,
which is the responsibility of the grantee or subgrantee. It is, however, good business
practice to maintain original documents, initial changes, make corrections without pencil or
whiteout, sign and date documents, and check the accuracy of hours recorded on
timesheets.

Without procedures to verify member activities or timesheet accuracy, the potential exists for
members to perform prohibited activities or receive education awards to which they are not
entitled. By initialing changes, accountability is maintained and timesheets are consistent
with member and management intentions.




                                              22
Recommendations:

We recommend that the Corporation:

      4a.    Provide guidance to The Corps Network on proper member timekeeping
             procedures;

      4b.    Require The Corps Network to strengthen its training and monitoring to
             ensure that subgrantees maintain proper member timesheets;

      4c.    Verify implementation of The Corps Network’s timesheet training and
             monitoring; and

      4d.    Disallow and, if already used, recover education awards made to members
             who did not serve the minimum required service hours.

The Corps Network’s Response:

            The Corps Network welcomes guidance from the Corporation on proper
             member timekeeping procedures, particularly for subgrantees operating in
             remote locations.

            The Corps Network will continue to update its procedures manual for each
             program and will develop policies addressing the subgrantees timekeeping
             requirements in procedures used during desk audits and site visits. The
             Corps Network can also provide training to all of its Program staff and
             subgrantees regarding timekeeping procedures.

            The Corps Network can provide documentation of training offered to Program
             staff and sites, as well as specific policies to be included into The Corps
             Network grant management manual. In addition, The Corps Network can
             provide documentation of policies included in each Corporation-funded
             program procedures manual for subgrantees and the subgrantee monitoring
             tool used to review timekeeping procedures during desk audits and site
             reviews.

The Corps Network’s Responses Related to MCC

            The discrepancies for the three MCC members were the result of post-
             submission timesheet adjustments. When updated timesheets were
             resubmitted for payroll, WBRS was not modified to reflect the adjusted lower
             number of hours for that pay period. This issue will be resolved when MCC
             discontinues the use of WBRS and uses payroll data collected at the end of a
             member’s term to certify they have completed the correct number of hours.

            The full education award for the member with a 10-hour difference should not
             be questioned and the member should be awarded a partial education award.
             Further, MCC reviewed the timesheets for this member and calculated
             service hours in excess of the hours required to receive an education award.



                                          23
The Corps Network’s Responses Related to VYCC

              The full education awards for two members should not be questioned and
               these members should be awarded partial education awards. The
               discrepancies between the WBRS data and physical timesheets for these
               members resulted from a missed data-error correction that was submitted
               subsequent to the timesheet.

              VYCC implemented training for its headquarters staff to ensure accuracy on
               timesheets submitted. It also implemented an internal self audit of
               AmeriCorps member timesheets, requiring that all timesheets are double-
               checked for accuracy prior to exiting an AmeriCorps member from the
               program.

Accountants’ Comment: The Corps Network noted that it welcomes guidance from the
Corporation and noted that it will develop procedures in the future and could provide training
to its staff. The Corporation needs to determine the sufficiency of actions taken.


Finding 5.    Subgrantees did not complete all member enrollment and exit forms and
              enter them into the Corporation’s WBRS in accordance with AmeriCorps
              requirements.

We tested enrollment, change of status, and exit forms for 121 of 995 members at MCC,
VYCC, ECC, SCC, and CCC. The subgrantees did not enter member enrollment, change of
status, and exit forms into WBRS within the required 30-day timeframe, as follows:

                                                          Change
              Program        Tested       Enrollment      of Status        Exit
             MCC                 19              5                          1
             VYCC                17                                         3
             ECC                 26               10          2             15
             SCC                  9                3                        3
             CCC                 50               19          3             19
             Totals             121               37          5             41


We also identified enrollment and exit forms that were missing, undated, unsigned by
members, signed after the members started service, signed before the members completed
service, or changed but not initialed, as follows:




                                             24
      Weakness                                  MCC   VYCC     ECC      CCC      Total
      Missing (Exit)                                    2                          2
      Not dated (Exit)                                  2                          2
      Signed after service start (Enrollment)           2                          2
      Signed before service end (Exit)                  1                          1
      Not signed (Enrollment and Exit)                          10        3       13
      Did not include certification of member
                                                 1                                 1
      eligibility for Education award (Exit)
      Hours on exit form did not match hours
                                                                12                12
      in WBRS

AmeriCorps Special Provisions (2005-2006), Section IV.E.2. Notice to the Corporation’s
National Service Trust, requires that grantees notify the Corporation within 30 days of a
member’s enrollment, change of status, and/or completion of service. AmeriCorps General
Provisions (2005-2006) Section V.E. Retention of Records, requires grantees to retain all
program records for 3 years from the date of submission of the final FSR. Without timely
completion and submission of enrollment and exit forms, the Corporation cannot maintain
accurate member records.

AmeriCorps requirements do not specifically address procedures for preparing forms. It is,
however, good business practice to maintain original forms, initial changes, and date forms.

Recommendations:

We recommend that the Corporation:

       5a.     Train The Corps Network on proper completion of member enrollment,
               change of status, and exit forms and ensure The Corps Network strengthens
               training and monitoring of member forms at its sites; and

       5b.     Verify that member forms at The Corps Network sites are properly completed
               and submitted in accordance with grant requirements.

The Corps Network’s Response:

              The Corps Network agrees with these recommendations, and welcomes any
               training offered by the Corporation on proper completion of member
               enrollment, change of status, and exit forms.

              The Corps Network can provide a sample report used to verify completion of
               member enrollment/exit forms for each site and documentation of policies
               included in each Corporation-funded program procedures manual for
               subgrantees, and the subgrantee monitoring tool used to review member
               enrollment and exit forms during desk audits and site visits.

Accountants’ Comment: The Corps Network appears responsive to the
recommendations; however, the Corporation needs to obtain and review documentation to
determine whether these actions are sufficient.



                                                25
Finding 6.   Subgrantees did not conduct orientation training or document member
             attendance at orientation for all members.

The subgrantees did not conduct or could not provide documentation to demonstrate that
members received orientation for the AmeriCorps Program and its requirements before
starting service, as follows:

             VYCC could not provide documentation to show that the sampled members
              (10 members in PY 2005-2006 and 7 members in PY 2006-2007) received
              orientation training.

             CCC could not provide documentation to show that the sampled members
              (25 members in PY 2006-2007 and 25 members in PY 2007-2008) received
              orientation training.

             ECC could not provide documentation to show that all 26 PY 2006-2007
              members received orientation training. ECC provided sign-in sheets used by
              ECC to track daily member attendance and agendas to support member
              attendance at orientation training. However, we could not rely on the
              documents because the sign-in sheets were not always completed by the
              members, did not agree with other timekeeping documents or the dates on
              the agendas, and did not indicate whether the members were performing
              service or attending orientation.

             SCC could not provide documentation to show that the nine sampled
              members from PY 2005-2006 received orientation training. SCC indicated
              that it conducted an AmeriCorps orientation but was unaware of the need to
              document members’ attendance at the orientation.

AmeriCorps Special Provisions (2005-2006), Section IV.D.3. Training, Supervision, and
Support, states that grantees must conduct an orientation for members and comply with any
pre-service orientation or training required by the Corporation. In addition, grantees are
required to provide members with training, skills, knowledge, and supervision necessary to
perform tasks required in their assigned project positions, including specific training in a
particular field and background information on the community served.

Recommendations:

We recommend that the Corporation:

       6a.    Provide guidance to The Corps Network on procedures to ensure that its
              programs and subgrantees conduct, maintain, and retain documentation to
              support member attendance at orientation;

       6b.    Require The Corps Network to strengthen its training and monitoring
              procedures of orientation requirements for programs and subgrantees; and

       6c.    Verify implementation of the orientation procedures.




                                             26
The Corps Network’s Response:

             Each Corporation-funded program manual has an outline of expectations
              during orientation and a requirement that orientation be identified on each
              member’s timesheet or on a sign-in sheet from the orientation. As a second
              source of documentation, The Corps Network also provides each subgrantee
              a sample Member File Checklist that includes a line for the date the member
              attended orientation. Further, subgrantees will be required to provide an
              orientation agenda during scheduled site visits.

             The Corps Network will continue to update its procedures manuals for each
              program and develop policies addressing the requirements for subgrantees in
              timekeeping procedures followed during desk audits and site visits.

             The Corps Network can provide documentation of training offered to Program
              staff and sites. The Corps Network can also provide documentation of
              policies included in each Corporation-funded program procedures manual for
              subgrantees and the subgrantee monitoring tool used during desk audits and
              site visits.

Accountants’ Comment: The grantee’s actions appear responsive to the
recommendations; however, the Corporation needs to obtain documentation to determine
the sufficiency of actions taken.


Finding 7.   The Corps Network and its subgrantees’ financial management systems
             did not adequately account for and report grant costs in accordance with
             Federal requirements.

The Corps Network did not use its accounting system to prepare its FSRs. It prepared its
FSRs using general ledger reports for costs incurred and a spreadsheet summarizing
reimbursement request forms for costs incurred by subgrantees. This method resulted in
transposition and data entry errors, including reporting costs not claimed by subgrantees
and omitting costs claimed by subgrantees. During the course of testing, The Corps
Network revised its FSRs for errors identified during the reconciliation process.

As a result of not using its accounting system to prepare its FSRs, The Corps Network’s
general ledger did not agree with the amounts reported on its September 30, 2007 FSRs, as
follows:

                                               Award No.         Award No.
                                              04NDHDC001        06NDHDC005
              Federal Share
              09/30/07 FSR                       $3,222,361        $311,146
              General Ledger                     3,224,657         $314,368

              Recipient Share
              09/30/07 FSR                       $1,760,842
              General Ledger                     $1,765,758



                                            27
The Corps Network did not have controls to ensure the accuracy of its FSRs. Officials
stated that they would make changes to the previous FSRs once this OIG report identified
the final financial results of the program.

According to 45 CFR § 2543.21, Standards for financial management systems, subsection
(b), recipient financial management systems must provide for accurate, current, and
complete disclosure of financial results of each Federally-sponsored program.

Subgrantees

             MCC did not use its financial management system to track costs by funding
              source. The accountant tracked expenditures by project and crew using an
              excel spreadsheet. On a monthly basis, the accountant sent the receipts, to
              The Corps Network along with a request for reimbursement. The Federal
              and match costs reported on the request for reimbursements were calculated
              using the percentages proposed in the budget.

             VYCC did not use its financial accounting system to track Federal or match
              costs for the RR and GCRC Programs or by funding source. Specifically:

                        VYCC did not have adequate timekeeping procedures to support
                         claimed labor. VYCC believed that timesheets were not required
                         and allocated labor using estimates of costs.

                        VYCC allocated fringe benefit costs by identifying costs related to
                         certain employees on specific invoices.

              In both cases above, the allocation of labor and fringe costs in the accounting
              system did not agree with its estimates or the amounts supported by receipts.
              We did not question the costs for the RR Program because we performed
              alternative procedures that showed the subgrantee’s actual costs exceeded
              the amount claimed for the Program. We did not question the costs for the
              GCRC Program because the costs were not claimed.

             MCC claimed unsupported employee benefit costs on the monthly request for
              reimbursements. The subgrantee reported more than the actual cost
              incurred on its monthly progress report submitted to The Corps Network. The
              accountant calculated the cost incorrectly and double-billed. We expanded
              our testing and reviewed 100 percent of the employee benefit costs. We
              noted that the total benefits incurred exceeded the amount claimed.

             As discussed in Schedule B, Note 1, VYCC used participant support costs to
              cover administrative costs without written approval.

             As discussed in Schedule C, Note 1, SCC used an unsupported allocation
              method to claim $46,836 of Federal personnel, fringe, and other program
              costs. SCC representatives considered the allocation to be allowable
              because its independent auditors considered it a reasonable way for SCC to
              document its expenses. SCC further indicated that it was difficult to allocate



                                            28
              expenses because member teams were comprised of both AmeriCorps and
              non-AmeriCorps members.

According to 45 CFR § 2543.21, Standards for financial management systems, subsection
(b), recipient financial management systems must provide for accurate, current, and
complete disclosure of financial results of each Federally-sponsored program.

Further, OMB Circular A-122, Cost Principles for Non-Profit Organizations, Attachment B.,
Paragraph 8.m., Support of salaries and wages, states that the distribution of salaries and
wages to awards must be supported by personnel activity reports that reflect an after-the-
fact determination of actual activity of each employee.

We also noted the following with respect to FSR submissions and program income:

             The Corps Network submitted one FSR late in PY 2005-2006.

             VYCC, MCC, ECC, and SCC did not report program income generated by the
              AmeriCorps members to The Corps Network although each had received
              program income. As a result, The Corps Network did not report program
              income to the Corporation. We did not question any costs since program
              expenses exceeded any required match.

45 CFR § 2543.24, Program income, requires that program income shall be used in one or
more of the following ways:

                    (1) Added to the funds committed to the project by the Federal
                        awarding agency and recipient and used to further eligible project or
                        program objects. (2) Used to finance the non-Federal share of the
                        project or program. (3) Deducted from total project program
                        allowable costs in determining the net allowable costs on which the
                        Federal share of costs is based.

Recommendations:

We recommend that the Corporation:

       7a.    Ensure that The Corps Network maintains complete, accurate, and timely
              accounting records;

       7b.    Require that The Corps Network train subgrantees to maintain complete,
              accurate, and timely accounting records; and

       7c.    Ensure that The Corps Network and its subgrantees report program income
              on the FSRs.

The Corps Network’s Response:

             The Corps Network’s Program staff review reimbursements from sites each
              month. Once the reimbursements are processed, each Program Director
              works with the Director of Finance and Administration to ensure consistency


                                             29
               between program financial tracking and accounting records. Semiannually,
               Program staff prepares the grantee FSR for the Corporation, which includes
               data from FSRs submitted by each subgrantee. The Program staff then
               works with the Director of Finance and Administration to ensure the FSR is
               consistent with all accounting records before submitting the FSR to the
               Corporation.

              With regard to training, we can supplement the regularly scheduled
               conference calls and include guidance in the procedures manual for each
               program. The Corps Network also can offer training to its subgrantees on
               strategies to ensure complete, accurate, and timely records.

              The Corporation will now require The Corps Network to use the Federal
               Financial Report (FFR) rather than the FSR, which will require the reporting
               of program income. The Corps Network will update its financial reporting
               forms so that each subgrantee is able to report the same information required
               by the FFR. Additionally, The Corps Network can offer training on how to
               calculate program income for its Program staff and subgrantees.

Accountants’ Comment: The grantee’s actions are not fully responsive to the
recommendations. The procedures described for preparing FSRs are the same procedures
that resulted in the difference between the FSR and general ledger discussed above.


Finding 8.    The Corps Network did not ensure that subgrantees complied with
              AmeriCorps requirements for member eligibility and living allowance
              payments.

The Corps Network did not ensure subgrantee compliance with documentation necessary to
support member eligibility with regard to citizenship, high school education, and parental
consent. Subgrantees also were not in compliance with provisions regarding the distribution
of members’ living allowances.

Citizenship

              CCC did not provide documentation of citizenship or legal resident status for
               one sampled member in PY 2006-2007 and three sampled members in PY
               2007-2008. None of the four members earned education awards.

              ECC did not have documentation of citizenship or legal resident status for
               one sampled member. Subsequent to the identification of this issue, ECC
               provided a copy of the birth certificate for this member. As a result, we did
               not question the education award and member support costs.

              Documentation in the member files indicated that SCC verified the eligibility
               of eight of nine sampled members after the members started service.




                                              30
                                       Start Date on     Date SCC Official Signed
                         Member         Timesheet       Eligibility Verification Form
                           1             06/11/07                  06/12/07
                           2             02/16/07                  03/06/07
                           3             06/11/07                  06/12/07
                           4             02/16/07                  03/06/07
                           5             06/11/07                  06/12/07
                           6             02/16/07                  03/06/07
                           7             01/20/07                  03/06/07
                           8             06/25/07                  07/16/07

According to 45 CFR§ 2522.200, What are the eligibility requirements for an AmeriCorps
participant?, every AmeriCorps participant is required to be a citizen, national, or lawful
permanent resident alien of the United States. AmeriCorps Special Provisions (2005-2006),
Section IV. C.1. Member Enrollment Procedures, states that an individual is enrolled as an
AmeriCorps member when the program has verified member eligibility to serve.

High School Education

              CCC did not obtain documentation to support that one member in PY 2007-
               2008 obtained a high school diploma/GED or agreed to obtain one. The
               member did not receive an education award and exited the program early.

              ECC did not have documentation to support that four members obtained a
               high school diploma/GED or agreed to obtain one. Subsequent to the
               identification of this issue, ECC provided certifications from two of the four
               members agreeing to obtain a GED. As discussed in Schedule D Note 2, we
               questioned the member support costs for the two remaining members.

AmeriCorps Special Provisions (2006-2007) Section IV.L.2, Verification, states that to verify
that a member meets the requirement relating to high-school education, the grantee must
obtain from the member, and maintain in the member’s file, a written declaration under
penalty of law that the member meets provision requirement relating to high-school
education.

Parental Consent

ECC did not have documentation to support parental consent for one member who was
under the age of 18 at the start of service. Subsequent to the identification of this issue,
ECC provided a certification stating that the member was in the custody of the District of
Columbia Youth Rehabilitation Services (DCYRS) and that DCYRS consented to the
member’s participation in the AmeriCorps Program. As a result, we did not question the
member support costs for this member.

AmeriCorps Special Provisions (2006-2007), Section IV.C.6. Parental Consent, states that
that before enrolling in a program, individuals under 18 years of age must provide written
consent from a parent or guardian.




                                               31
Living Allowance Distribution

Living allowance payments were not distributed in accordance with the applicable
provisions, as follows:

             MCC and SCC based the living allowance payments on hours served. MCC
              members were not paid for sick leave or days absent.

             VYCC underpaid three members and overpaid one member. In addition, the
              one member that was overpaid was not paid in equal installments.

             SCC provided a living allowance to an Education Award Only member. The
              member was enrolled in SCC’s PY 2006-2007 Education Award Only
              Program but performed a portion of his service in the Gulf Coast with SCC’s
              PY 2005-2006 GCRC Program. Due to delays, the two programs operated
              concurrently.

             SCC provided living allowance payments to an individual who was not
              enrolled in the AmeriCorps Program.

             ECC provided a lump-sum living allowance payments to four members at the
              conclusion of their service. The lump sum included the return of fines
              previously deducted from the members’ living allowance.

             ECC provided bonus living allowance payments as incentives to six
              members.

             ECC provided living allowance payments to nine members before the
              members were enrolled in WBRS and started their service.

             ECC provided living allowance payments to members after the members
              exited from the AmeriCorps Program.

             ECC provided living allowance payments to five individuals who were not
              enrolled in the AmeriCorps Program.

AmeriCorps Special Provisions (2005-2006), Section IV. I.1. Living Allowance Distribution,
states that programs should pay living allowance in regular increments, such as weekly or
bi-weekly, paying an increased increment only for increased living expenses, such as food,
housing, or transportation, and that the program is not permitted to provide a “lump sum”
payment of the remaining living allowance upon a member’s early completion of a term of
service, nor provide “make-up” missed payments.

Recommendations:

We recommend that the Corporation:

       8a.    Require The Corps Network to strengthen its subgrantee training and
              monitoring to ensure that subgrantees comply with eligibility and living
              allowance AmeriCorps requirements; and


                                             32
       8b.     Verify implementation of the training and monitoring.

The Corps Network’s Response:

              The Corps Network agrees with this recommendation and welcomes any
               guidance offered by the Corporation. The Corps Network will continue to
               update its procedures manuals for each program and develop polices
               addressing these requirements for all program staff to follow during site visits.

              The Corps Network can provide documentation of training offered to program
               staff and sites, as well as specific policies to be included into The Corps
               Network grant management manual. The Corps Network can also provide
               documentation of policies included in each Corporation-funded program
               procedures manual for subgrantees, and the subgrantee monitoring tool used
               during desk audits and site reviews.

Accountants’ Comment: The Corps Network’s actions appear responsive to the
recommendations. The Corporation needs to obtain and review documentation to assure
that actions taken are sufficient.


Finding 9.   The Corps Network did not operate its GCRC Program in accordance with
             the approved grant application.

The Corps Network’s grant application narrative for the GCRC Program stated that it would
provide firm-fixed-rate subgrants to its subgrantees. The Corps Network stated that fixed
price subgrants were necessary for an emergency hurricane relief grant because counting
individual receipts for crews would not be feasible and would delay the deployment of the
members. However, The Corps Network reimbursed subgrantees for actual expenses
instead of the amount of the firm-fixed rate and did not obtain Corporation approval for this
change.

The 2005-2006 AmeriCorps Provisions state:

       These AmeriCorps Grant Provisions are binding on the Grantee. By accepting
       funds under this grant, the grantee agrees to comply with the AmeriCorps Provisions,
       all applicable federal statutes, regulations and guidelines, and any amendments
       thereto. The grantee agrees to operate the funded Program in accordance with the
       approved grant application and budget, supporting documents, and other
       representations made in support of the approved grant application.

Further, AmeriCorps Special Provisions (2005-2006) Section IV.M. Budget and
Programmatic Changes requires grantees to obtain Corporation approval for changes to the
program and grant requirements.




                                              33
Recommendations:

We recommend that the Corporation:

       9a.    Require The Corps Network to provide a calculation that identifies the amount
              that would have been reimbursed to each subgrantee using the terms of the
              grant application compared to the amounts that were actually disbursed; and

       9b.    Ensure The Corps Network complies with its approved grant application and
              obtains Corporation approval for budget and programmatic changes.

The Corps Network’s Response: The Corps Network agrees with these recommendations
and can provide the calculation of reimbursements to each subgrantee using the terms of
the grant application as indicated.

Corporation’s Response: The Corporation agrees the program was not implemented as
approved. The Corporation agrees that The Corps Network needs to provide a calculation
that identifies the amount that would have been reimbursed to each subgrantee following
the terms of the approved grant application. Based on that information, the Corporation will
determine final resolution.

Accountants’ Comment: The corrective actions described above are responsive to our
recommendations.




                                             34
               APPENDIX A

           THE CORPS NETWORK’S
RESPONSE TO AGREED-UPON PROCEDURES REPORT
                                   RESUBMIT


Stuart Axenfeld, Assistant Inspector General for Audit
Corporation for National and Community Service
Office of the Inspector General
1201 New York Avenue, NW– Suite 830
Washington, DC 20525


January 23, 2009


Dear Stuart Axenfeld:

Thank you for the opportunity to provide comments on the Draft Audit Report on
the Agreed-Upon Procedures for Corporation for National and Community Service
Grants Awarded to The Corps Network.

We look forward to working with the Office of Inspector General and other
Corporation staff towards successful resolution of the recommendations in the
report.

The detailed comments follow. Should you need additional information, please
feel free to contact me at (202) 737-6272.


Sincerely,




Marty O’Brien, Vice-President and Chief Operating Officer, The Corps Network




Cc:   Sally T. Prouty, President and CEO, The Corps Network
      Tanya Simpson, Grants and Projects Director, The Corps Network
      Nancy Siegal, Director of Finance and Administration, The Corps Network

.


                                        1 
 
         OIG Draft Audit Report – Responses by The Corps Network
Finding 1.   Subgrantee claimed unallowable and unsupported costs

CNCS OIG Recommendations:

1a. Recover the disallowed costs;

1b. Recover the administrative costs related to the disallowed costs; and

1c. Instruct The Corps Network to review applicable regulations and develop policies and
procedures to ensure claimed costs are allowable, adequately documented, and allocable in
accordance with applicable cost principles and regulations.

The Corps Network’s Response:

1a&b. The Corps Network believes that all disallowed costs and related administrated costs
identified with the Gulf Coast Recovery Corps project should not be recovered, since this
project was originally based on a fixed-rate agreement for its subgrantees. Under this format,
neither a detailed breakdown of budgeted expenses, or itemized documentation for match
costs (timesheets, invoices, and receipts for expenses) were required by subgrantees.
In the case of Southwest Conservation Corps, the total disallowed costs identified –
$179,378 in match funds – are based on the subgrantee receiving funds on a reimbursement
basis rather than a fixed price agreement.

1c. The Corps Network welcomes all training and guidance offered by CNCS to effectively
manage its grants. Additionally, The Corps Network has already begun taking steps to
strengthen its oversight for all grant funds. This includes the hiring of a Grants and Projects
Director to oversee all grants management activities across the organization and developing
standardized processes for all CNCS awards based on the applicable cost principles and
regulations for each grant. The Corps Network has also instituted a Corrective Action Policy
with its subgrantees to address any programmatic or financial compliance issues.
Additionally, a more rigorous process for sub-grantee monitoring including site visit and desk
audits to review both programmatic and financial compliance of the grant will be utilized by all
grant and program staff. This information will be included in the organization-wide grants
management manual currently being developed by The Corps Network. This will ensure
allowability of all grant expenses, through consistent review of documentation for use of grant
funds, including costs associated with the required match.


Finding 2. Some member contracts were not signed before applicants started
service.
.
CNCS OIG Recommendations:
2. The Corporation requires The Corps Network to strengthen its training and monitoring of
member contracts to ensure that member contracts are signed prior to the start of service.

                                               2 
 
The Corps Network’s Response:

The Corps Network agrees with this recommendation. Within each of its grant funded
programs, The Corps Network clearly communicates the importance of member contracts
being signed in advance of their term of service. This is outlined within the policies and
procedures manual for each program, and regularly reinforced throughout the year through
newsletters, conference calls and other correspondence. Going forward, all Program staff
will review a random sample of member contracts during desk audits and site visits.

Additionally, each subgrantee is expected to notify all relevant staff of the need for contracts
to be signed before the start of a Corpsmembers service, and providing formal training for
new staff members who administer the AmeriCorps program at their local sites. Each
subgrantee is also responsible for ongoing review of Corpsmember files to ensure that
member contracts are completed accurately and on a timely basis.



Finding 3. Subgrantees could not document that all members received evaluations,
and certain evaluations did not meet AmeriCorps requirements.

CNCS OIG Recommendations:
3a. Train The Corps Network on the requirements for member evaluations and
ensure it strengthens its training and monitoring procedures for conducting
and documenting member evaluations; and
3b. Verify the implementation of The Corps Network’s training and monitoring
procedures for member evaluations.

The Corps Network’s Response:
3a. The Corps Network disputes this finding. The June 2008, Volume 3, Number 3, issue of
AmeriCorps State and National Policy Update communication, includes the following
statement:

In the past, the Provisions were silent as to whether EAPs were required to comply with the
regulatory requirement to perform member evaluations. Starting in 2008-2009, EAPs will
have to comply with the regulation, which is designed to ensure that members are evaluated
sufficiently to determine eligibility for a second term of service.

In June 2008, The Corps Network has communicated the new regulation to each of its
subgrantees and included information into the procedures manuals for each CNCS funded
programs. The Corps Network has also provided sample evaluation forms for subgrantees to
use to ensure compliance with this regulation. The sample evaluation form meets the
AmeriCorps requirements regarding what should be evaluated and documented during the
mid- and end of term evaluations. Each subgrantee is also required to train new staff and
provide ongoing review of corpsmember files to ensure that member evaluations are
completed accurately and on a timely basis.


                                                3 
 
3b. The Corps Network can provide documentation of training offered to Program staff and
sites as well as specific policies to be included into The Corps Network grant management
manual. The Corps Network can also provide documentation of policies included in each
CNCS-funded program procedures manual for subgrantees, and the subgrantee monitoring
tool used to review documentation of member evaluations during desk audits and site
reviews.

Finding 4. Subgrantees had weaknesses in member timekeeping procedures.

CNCS OIG Recommendations:

4a. Provide guidance to The Corps Network on proper member timekeeping
procedures;
4b. Require The Corps Network to strengthen its training and monitoring to
ensure that subgrantees maintain proper member timesheets;
4c. Verify implementation of The Corps Network’s timesheet training and
monitoring; and
4d. Disallow and, if already used, recover education awards made to members
who did not serve the minimum required service hours.

The Corps Network’s Response:
4a. Because many subgrantees within The Corps Network’s portfolio complete service
projects in remote locations, this often poses challenges for members to complete and
submit timesheets. Although most sites have formal processes to allow ample time for
completion and verification of timesheets, there are instances where timesheets may not be
properly completed. The Corps Network welcomes any guidance from CNCS on member
timekeeping procedures, particularly for subgrantees operating in remote locations.

4b.The Corps Network will continue to update its procedures manuals for each program
which is shared with subgrantees, and develop policies addressing the requirements for
subgrantees in timekeeping procedures for all Program Staff of The Corps Network to follow
during desk audits and site visits to ensure timekeeping procedures are followed correctly.
The Corps Network can also provide training to all of its Program Staff and subgrantees
regarding timekeeping procedures.

4c. The Corps Network can provide documentation of training offered to Program staff and
sites, as well as specific policies to be included into The Corps Network grant management
manual. The Corps Network can also provide documentation of policies included in each
CNCS-funded program procedures manual for subgrantees, and the subgrantee monitoring
tool used to review timekeeping procedures during desk audits and site reviews.




                                             4 
 
4d. Please see the comments below for each subgrantee with questioned costs:

Minnesota Conservation Corps
All 3 education awards in question are the result of a post-submission timesheet adjustment
and the requirement of double data entry. When updated timesheets were re-submitted for
payroll, WBRS was not modified to reflect the adjusted lower numbers of hours for that pay
period. This issue will be resolved when MCC discontinues the use of WBRS and relies
entirely upon payroll data collected at the end of a member’s term to certify they have
completed the correct number of hours.
The entire education award of a Corpsmember should not be questioned over a discrepancy
of 10 hours. Instead the award should be deemed a partial award and the amount in
question should reflect the hours not served rather than the total amount of the award.
Note: MCC reviewed the timesheets several times with Cotton & Company and in each case
came up with the member obtaining more than the full number of hours through volunteer
time accounted on MCC AmeriCorps Volunteer timesheets. Repeated attempts at asking the
reviewers to review the members volunteer timesheets to be certain that all volunteer hours
were counted were ignored.

Vermont Youth Conservation Corps
In the case of the VYCC, two members education awards are being questioned.
Discrepancies between the WBRS data and physical timesheets resulted from a missed data
error correction post timesheet submittal. In some cases AmeriCorps members do not
complete their required hours prior to the completion of the VYCC AmeriCorps program. In
these cases the VYCC works with the member to find suitable host volunteers sites to
complete volunteer hours to bring the members total hours up to their required 1700 hours.
In these cases hours logged are reported to the VYCC headquarters staff from remote
locations (often the member’s home community) verbally and by a hard copied mailed to the
VYCC headquarters. In these two cases, this led to hours being double counted in WBRS.

For the two cases in question, both Corpsmembers completed 1,645 and 1,655 hours
respectively. They have completed 96.76% and 97.35% of their required service and in this
case should thus be eligible for $4572.13 and $4599.78 of their education award. This would
leave $278.08 as a total questioned cost for both members.

Corrective Actions: As Cotton & Co. noted AmeriCorps requirements did not specifically
address timesheet procedures. Despite this the VYCC has implemented training for its
headquarters staff to ensure accuracy on timesheets submitted. It has also implemented an
internal self audit of AmeriCorps member timesheets requiring that all timesheets are double
checked for accuracy prior to an AmeriCorps Member being exited from the program.


Finding 5. Subgrantees did not complete all member enrollment and exit forms and
enter them into the Corporation’s WBRS in accordance with AmeriCorps
requirements.




                                             5 
 
CNCS OIG Recommendations:

5a. Train The Corps Network on proper completion of member enrollment,
change of status, and exit forms and ensure The Corps Network strengthens
training and monitoring of member forms at its sites; and
5b. Verify that member forms at The Corps Network sites are properly completed
and submitted in accordance with grant requirements.

The Corps Network’s Response:
5a&b. The Corps Network agrees with these recommendations, and welcomes any training
offered by CNCS on proper completion of member enrollment, change of status, and exit
forms. The Corps Network can provide a sample report used to verify completion of member
enrollment/exit forms for each site. Additionally, The Corps Network can also provide
documentation of policies included in each CNCS-funded program procedures manual for
subgrantees, and the subgrantee monitoring tool used to review member exit/enrollment
forms during desk audits and site reviews. Additionally, The Corps Network regularly
reinforces the importance of accurate member enrollment and exit forms throughout the year
through newsletters, conference calls and other correspondence.


Finding 6. Subgrantees did not conduct orientation training or document member
attendance at orientation for all members.

CNCS OIG Recommendations:

6a. Provide guidance to The Corps Network on procedures to ensure that its
programs and subgrantees conduct, maintain, and retain documentation to
support member attendance at orientation;
6b. Require The Corps Network to strengthen its training and monitoring
procedures of orientation requirements for programs and subgrantees; and
6c. Verify implementation of the orientation procedures.

The Corps Network’s Response:

6a. Each CNCS-funded program manual has an outline of expectations during Orientation,
and required that proof of orientation be clearly identified either on the individual member’s
timesheet or on a sign-in sheet from the orientation. As a second source of documentation,
The Corps Network also provides each subgrantee with a sample Member File Checklist
which includes a line for the date(s) the member attended orientation. Going forward,
subgrantees will be required to provide an orientation agenda during scheduled site visits or
desk audits. The Corps Network welcomes any additional guidance from CNCS on
conducting, maintaining, and retaining documentation to support member attendance at
orientation.

6b.The Corps Network will continue to update its procedures manuals for each program
which is shared with subgrantees, and develop policies addressing the requirements for


                                               6 
 
subgrantees in timekeeping procedures for all Program Staff of The Corps Network to follow
during desk audits and site visits to ensure guidelines for member orientation are followed
correctly. The Corps Network can also provide training to all of its Program Staff and
subgrantees regarding documentation of member orientation.

6c. The Corps Network can provide documentation of training offered to Program staff and
sites, as well as specific policies to be included into The Corps Network grant management
manual. The Corps Network can also provide documentation of policies included in each
CNCS-funded program procedures manual for subgrantees, and the subgrantee monitoring
tool used to review member orientation documentation during desk audits and site reviews.


Finding 7. The Corps Network and its subgrantees’ financial management systems
did not adequately account for and report grant costs in accordance with
Federal requirements.

CNCS OIG Recommendations:

7a. Ensure that The Corps Network maintains complete, accurate, and timely
accounting records;
7b. Require that The Corps Network train subgrantees to maintain complete,
accurate, and timely accounting records; and
7c. Ensure that The Corps Network and its subgrantees report program income
on the FSRs.

The Corps Network’s Response:
7a. On a monthly basis, the Corps Network Program staff reviews reimbursement requests
from sites by comparing each request to the subgrantee budget and appropriate
documentation. Once reimbursements are processed, each Program Director works directly
with the Director of Finance & Administration to ensure consistency between program
financial tracking and accounting records (Profit and Loss statement & General Ledger). Any
issues are reconciled on a timely basis. On a semi-annual basis, Program staff also
completes its FSR to be submitted to CNCS based on similar FSR’s submitted by each
subgrantee. Once reports have been verified and compiled, Program Staff then works
directly with the Director of Finance and Administration to ensure FSR is consistent with all
accounting records.

The Corps Network may have end of year adjustments based on its Annual Audit, which may
require FSR’s to be adjusted once the Annual Audit becomes finalized. In these instances
when a CNCS grant becomes affected by EOY adjustments, The CNCS Grants Officer is
notified immediately and FSR’s are updated to reflect these changes. A paper copy of both
the original and updated FSR’s are kept on file within each grant folder. Any additional
guidance offered by CNCS is welcomed by The Corps Network.




                                              7 
 
7b. In addition to regularly scheduled conference calls and including guidance into the
procedures manual for each program, The Corps Network can offer training to its
subgrantees on strategies to ensure complete, accurate and timely accounting records.

7c. CNCS will now require The Corps Network to use the FFR rather than the FSR, which
will require the reporting of program income generated. The Corps Network will update its
financial reporting forms to be completed by each subgrantee requesting the same
information. This information will be compiled and included into the FSR submitted for each
program by The Corps Network. Additionally, The Corps Network can offer training on how
to correctly calculate program income for its Program staff and subgrantees through
conference calls, newsletters, and during required meetings held for subgrantees during its
Annual Corps Forum.

Finding 8. The Corps Network did not ensure that subgrantees complied with
AmeriCorps requirements for member eligibility and living allowance
payments.

CNCS OIG Recommendations:

8a. Require The Corps Network to strengthen its subgrantee training and
monitoring to ensure that subgrantees comply with eligibility and living
allowance AmeriCorps requirements; and
8b. Verify implementation of the training and monitoring.

The Corps Network’s Response:
8a.The Corps Network agrees with this recommendation and welcomes any guidance offered
by CNCS. The Corps Network will continue to update its procedures manuals for each
program which is shared with subgrantees, and develop policies addressing the
requirements for subgrantees in member eligibility and living allowance payments for all
Program Staff of The Corps Network to follow during desk audits and site visits to ensure
procedures are followed correctly. The Corps Network can also provide training to all of its
Program Staff and subgrantees regarding member eligibility and living allowance payments.

8b. The Corps Network can provide documentation of training offered to Program staff and
sites as well as specific policies to be included into The Corps Network grant management
manual. The Corps Network can also provide documentation of policies included in each
CNCS-funded program procedures manual for subgrantees, and the subgrantee monitoring
tool used to review member eligibility and living allowance payments during desk audits and
site reviews.


Finding 9. The Corps Network did not operate its GCRC Program in accordance with
the approved grant application.

CNCS OIG Recommendations:
9a. Require The Corps Network to provide a calculation that identifies the amount


                                              8 
 
that would have been reimbursed to each subgrantee using the terms of the
grant application compared to the amounts that were actually disbursed; and
9b. Ensure The Corps Network complies with its approved grant application and
obtains Corporation approval for budget and programmatic changes.

The Corps Network’s Response:
9a&b. The Corps Network agrees with these recommendations and can provide the
calculation of reimbursements to each grantee using the terms of the grant application as
indicated.




                                              9 
 
               APPENDIX B

              CORPORATION’S
RESPONSE TO AGREED-UPON PROCEDURES REPORT
                               NATIONAL&:
                               COMMUNITY
                               SERVICE

To:            Stuart Axenfeld, Assistant In   ctor General for Audit

From:                      QP..r-tnPlrM.l,~· tree or ~ Management
                                               0


Cc:           William Anderson, Deputy CFO for Finance
              Frank Trinity, General Counsel
              Lois Nembhard, Deputy Director of AmeriCorps National
              Sherry Blue, Audit Resolution Coordinator

Date:         January 22, 2009

Subj:         Response to OIG Draft of Agreed-Upon Procedures of Grants Awarded to
              The Corps Network


Thank you for the opportunity to review the draft Agreed-Upon Procedures report of the
Corporation's grants awarded to The Corps Network. We are addressing only one
finding at this time. We will respond to all findings ap.d recommendations in our
management decision when the final audit is issued.

As the auditors noted, one of the three grants reviewed was awarded for fixed-rate
sub grants, but not implemented according to the approved application. The Corporation
agrees the program was not implemented as approved. We agree that The Corps
Network needs to provide a calculation that identifies the amount that would have been
reimbursed to each sub grantee following the terms of the approved grant application. In
its response, the Network agrees and will provide the calculation of reimbursements to
the Corporation. Based on that information, the Corporation will determine final
resolution.

The Corporation will address the remaining questioned costs and other findings during
audit resolution after the audit is issued as final.
